United States Department of Agriculture
Office of Inspector General




American Recovery and Reinvestment Act
of 2009—Broadband Initiatives Program
—Pre-Approval Controls




                                          Audit Report 09703-0001-32
                                          March 2013
                                        American Recovery and Reinvestment Act of 2009 –
                                                Broadband Initiatives Program –
                                                    Pre-Approval Controls

What Were OIG’s
                                                       Audit Report 09703-0001-32
Objectives
Our audit objectives were to
assess RUS’ internal controls
over the approval of BIP loan and
grant applications, including, but
not limited to, if RUS’ controls
were adequate to ensure projects
were eligible and whether RUS
took actions to mitigate the risks
                                     OIG reviewed how RUS awarded about
of overbuilding in service areas.    $3.5 billion in Recovery Act program-level
What OIG Reviewed
                                     funding to provide sufficient access to
                                     high-speed broadband service to facilitate
We statistically sampled and
reviewed 86 approved BIP             rural economic development.
applications to test the
application process, which
totaled $783.9 million of about      What OIG Found
$3.5 billion in program-level
Recovery Act funding allocated       With the passage of the American Recovery and Reinvestment Act of
to BIP.                              2009 (Recovery Act), Congress authorized the Rural Utilities
                                     Service’s (RUS) Broadband Initiatives Program (BIP) to help bring
What OIG Recommends
                                     broadband to rural areas of the United States where residents might
Generally, we recommended that,      otherwise not have access to this important technology.
for future programs, RUS avoid
funding broadband projects in        The Office of Inspector General (OIG) found that RUS complied with
areas that are already served by     the provisions of the Recovery Act in how it implemented the
RUS-subsidized providers,            program and did not question the eligibility of any RUS-funded BIP
publish and follow clearly           projects in our sample. Additionally, we determined that RUS took
defined project completion           action to address prior audit recommendations relating to BIP, that
expectations, and focus
                                     controls over contractor reviews of applications were adequate, and
broadband funding on rural areas
that do not have access to this
                                     that coordination with the National Telecommunications and
technology.                          Information Administration and the Federal Communications
                                     Commission was adequate. However, we did find that RUS funded
                                     BIP projects that sometimes overlapped preexisting RUS-subsidized
                                     providers and approved 10 projects, totaling over $91 million, even
                                     though the proposed projects would not be completed within the
                                     3-year timeframe RUS established and published. We also found that
                                     the agency could have implemented the program so that it would have
                                     focused more exclusively on rural residents who do not already have
                                     access to broadband.

                                     RUS does not agree with OIG’s opinion on how certain aspects of
                                     BIP were carried out and stated that RUS developed processes that
                                     met the intent of the Recovery Act to promote rural economic
                                     development by bringing broadband service to underserved areas of
                                     rural America.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          March 29, 2013

AUDIT
NUMBER:        09703-0001-32

TO:            Dallas Tonsager
               Under Secretary
               Rural Development

               John C. Padalino
               Acting Administrator
               Rural Utilities Service

ATTN:          John Dunsmuir
               Acting Director
               Financial Management Division

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       American Recovery and Reinvestment Act of 2009 - Broadband Initiatives
               Program - Pre-Approval Controls

This report presents the results of the subject audit. Your written response to the official draft
report, dated March 18, 2013, is included in its entirety at the end of this report. Excerpts from
your response and the Office of Inspector General’s (OIG) position are incorporated into the
relevant sections of the report.

Based on your agency’s written response, we are able to accept management decision on
Recommendations 1, 5, and 6. We can accept the Rural Utilities Service's management decision on
Recommendations 2, 3, 4, and 7, once we have been provided with the information, as outlined in
the report sections' OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
Section 1: Broadband Initiatives Program (BIP) ................................................5
   Finding 1: RUS Approved BIP Projects That Overlap Preexisting RUS-
   Subsidized Projects ...............................................................................................5
         Recommendation 1 ........................................................................................7
         Recommendation 2 ........................................................................................8
         Recommendation 3 ........................................................................................9
   Finding 2: RUS Approved BIP Projects That Did Not Comply With
   Published Project Completion Timeframes .....................................................10
         Recommendation 4 ......................................................................................11
   Finding 3: RUS Followed Recovery Act’s Language but Rural America
   Could Receive Additional Benefit From an Increased Focus of Funds on
   Rural Residents Lacking Access to Broadband ..............................................13
         Recommendation 5 ......................................................................................16
         Recommendation 6 ......................................................................................16
         Recommendation 7 ......................................................................................17
Scope and Methodology .........................................................................................19
Abbreviations .........................................................................................................21
Exhibit A: Summary of Monetary Results ..........................................................22
Exhibit B: Overlapping Preexisting RUS-Subsidized Projects .........................23
Exhibit C: Rural Households Without Service ...................................................24
Exhibit D: De Minimis Overlap ............................................................................27
Exhibit E: Statistically Sampled BIP Project Applications ...............................28
Exhibit F: Statistical Plan – Sampling Methodology and Analysis Results .....30
Agency’s Response .................................................................................................33
Background and Objectives

Background

The Rural Utilities Service (RUS), an agency in the Rural Development mission area, has been
responsible for administering several distinct broadband programs for the past 11 years.
Congress and the administration acted in 2001 and 2002 to initiate pilot broadband loan and
grant programs within RUS. Subsequently, section 6103 of the Farm Security and Rural
Investment Act of 2002 authorized a loan and loan guarantee program to provide funds for the
costs of the construction, improvement, and acquisition of facilities and equipment for broadband
service in eligible rural communities. 1 RUS operates two assistance programs exclusively
dedicated to financing broadband deployment: the Rural Broadband Access Loan and Loan
Guarantee Program and the Community Connect Grant Program.

On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act)
was signed into law and allocated a total of $7.2 billion for broadband programs—$2.5 billion to
RUS for the Broadband Initiatives Program (BIP) and $4.7 billion to the National
Telecommunications and Information Administration’s (NTIA) Broadband Technology
Opportunities Programs (BTOP). RUS worked in collaboration with the Department of
Commerce’s NTIA to support the Recovery Act and implement these new Recovery Act
broadband programs. RUS was to provide $2.5 billion in BIP grants, loans, and loan guarantees
for broadband infrastructure in any area of the United States, provided that at least 75 percent of
the area to be served was a rural area 2 without sufficient access to high-speed broadband service
to facilitate rural economic development. 3 The $2.5 billion budget authority allowed RUS to
provide about $3.5 billion in program-level funding. 4

The Recovery Act also provided that no area of a project funded by BIP may receive funding to
provide broadband service under BTOP, and that priority for awarding BIP funds was to be
given (1) to project applications for broadband systems that will deliver end users a choice of
more than one service provider; (2) to projects that provide service to the highest proportion of
rural residents who do not have access to broadband service; (3) for project applications from
borrowers or former borrowers under title II of the Rural Electrification Act of 1936 and for
project applications that include such borrowers or former borrowers; (4) to project applications
that demonstrate that, if the application is approved, all project elements will be fully funded;
(5) to project applications for activities that can be completed if the requested funds are


1
  Public Law 107-171.
2
  For purposes of BIP, “rural area” means any area, as confirmed by the 2000 census of the Bureau of the Census,
which is not located within: (1) a city, town, or incorporated area that has a population of greater than
20,000 inhabitants; or (2) an urbanized area contiguous and adjacent to a city or town that has a population of
greater than 50,000 inhabitants. For purposes of the definition of rural area, an urbanized area means a densely
populated territory as defined in the 2000 census.
3
  Public Law 111-5, American Recovery and Reinvestment Act, February 17, 2009.
4
  “Program level” is the sum of the activities supported or undertaken by an agency. Since RUS used BIP funds to
make grants and loans, the program level is larger than the budget authority because the loans are expected to be
repaid.

                                                                        AUDIT REPORT 09703-0001-32             1
provided; and (6) to activities that can commence promptly following approval. The Recovery
Act did not assign an order of precedence to the six specified BIP priorities.

For the Recovery Act broadband programs, RUS, NTIA, and the Federal Communications
Commission (FCC) cosponsored public meetings to initiate public outreach on the current
availability of broadband service in the United States, and ways in which the availability of
broadband services could be expanded. To accomplish the outreach, they included
120 panelists—including representatives from consumer and public interest groups, State and
local governments, tribal governments, minority and vulnerable populations, industry, academia,
and other stakeholders. Each provided comments on how to make the broadband initiatives
effective, equitable, and efficient. In addition to the information received about the new
programs during the public meetings, prior to issuing general policy and application procedures
for each round of BIP funding, RUS requested written comments from the public through a
“request for information” issued jointly with NTIA. 5 These requests generally sought public
comment to assist RUS in implementing BIP.

On July 9, 2009, via a joint Notice of Funds Availability (NOFA) and solicitation of
applications, RUS and NTIA announced general policy and application procedures for
broadband initiatives established pursuant to the Recovery Act—the first of two funding rounds.
For round one, RUS and NTIA solicited applications for approximately $4 billion in program-
level funding for both agencies. The types of BIP projects funded under round one were
broadband infrastructure “last mile remote area projects,” “last mile non-remote projects,” and
“middle mile projects.” 6 Applicants submitted a separate application for each discrete project by
project type. (In this report, we use the terms “project” and “application” interchangeably.)

For round two, RUS separately announced a NOFA on January 22, 2010, for approximately
$2.2 billion in program-level funding for BIP. There were significant differences in the project
requirements for round two projects, compared to the round one requirements. For example,
RUS increased the percentage of grant-to-loan funding available. Whereas the round one grant-
to-loan ratio was 50/50 (i.e., all successful applications could receive an award comprised of
50 percent loans and 50 percent grants), in round two the grant-to-loan ratio was 75/25.
Moreover, the NOFA announced that applications would also be accepted for satellite projects,
technical assistance, and rural library broadband grants.




5
  74 Federal Register (FR) 10716, March 12, 2009, and 74 FR 58940, November 16, 2009.
6
  A “last mile remote area project” is an infrastructure project that provides broadband service to the end-user or to
end-user devices only in a remote area(s). (The NOFA defined a “remote area” as an unserved, rural area 50 miles
from the limits of a nonrural area.) A “last mile non-remote project” is an infrastructure project that provides
broadband service to end users or end-user devices that were not exclusively in remote areas. “Middle mile
projects” are projects that do not predominantly provide broadband service to end users or end-user devices, and
may include interoffice transport, backhaul, internet connectivity, or special access.

2     AUDIT REPORT 09703-0001-32
The following table describes how BIP funding was allotted across the two rounds:

    Funding              Applications              Funding               Applications              Funding
     Round                Received 7              Requested               Approved                Approved
                                                  (Billions) 8                                    (Billions)
        1                           1,234                $17.765                       61                $0.960
        29                            856                $11.200                      259                $2.569

According to RUS, under round one, all applications that were found eligible for BIP were
funded, except seven applications for which the applicants rejected the conditions of the awards.
Similarly, under round two, all eligible applications were funded, except 10 for which the
applicants did not timely submit “second review” documentation. 10

The Government Accountability Office (GAO) has issued two audit reports on the Recovery Act
broadband programs’ application processes and pre-award controls. Both reports covered round
one funding. In the first report, GAO found that RUS and NTIA were facing challenges and
risks associated with the Recovery Act funding, such as evaluating applications and overseeing
funded projects. GAO recommended that the agencies ensure sufficient time to review
applications in round two, develop contingency plans for oversight beyond fiscal year (FY)
2010, and develop program performance measures. Both RUS and NTIA agreed with GAO’s
findings and recommendations. 11

GAO’s second report found that “the agencies consistently reviewed the applications and
substantiated the information as specified in the Round 1 funding notice,” although post-award
oversight was identified as a weakness due to the lack of funding beyond September 30, 2010,
for both agencies. GAO therefore recommended that the agencies develop a contingency plan
targeting the agencies’ oversight resources to ensure that recipients of the Recovery Act funding
completed their projects in the manner consistent with their applications and awards. Neither
agency took a position on GAO’s recommendation but noted steps were being taken to complete
their respective programs. 12



7
  The number of applications received for round one includes 401 BIP-only applications and 833 joint applications
to BIP and BTOP. (Round one provided that applications to fund broadband infrastructure projects in areas which
were at least 75 percent rural were required to be submitted to RUS for consideration under BIP. If such applicants
intending to serve rural areas also chose to be considered for BTOP funding, then they must have completed the
additional elements required of BTOP infrastructure applicants, i.e., completed a “joint application.” NTIA made
awards to such applications NTIA determined to be meritorious after RUS reviewed the applications and determined
not to fund them.)
8
  The amount of funding requested for round one includes $4.974 billion for BIP-only applications and
$12.791 billion for joint applications to BIP and BTOP.
9
  Round 2 includes infrastructure, satellite, technical assistance, and rural library broadband grant applications.
10
   RUS used a “second review” as a method of identifying applications that had “various types of flaws” that could
be potentially corrected and reconsidered.
11
   Recovery Act: Agencies Are Addressing Broadband Program Challenges, but Actions Are Needed to Improve
Implementation, GAO-10-80, November 16, 2009.
12
   Recovery Act: Further Opportunities Exist to Strengthen Oversight of Broadband Stimulus Programs,
GAO-10-823, August 4, 2010.

                                                                        AUDIT REPORT 09703-0001-32             3
To assist RUS in achieving its Recovery Act objectives and to minimize the risks of inefficient
or improper actions that could put Government funds at risk, the Office of Inspector General
(OIG) initiated a multiphase program of oversight related to Recovery Act funding. 13 We
coordinated our work with GAO to avoid duplicating one another’s efforts. When GAO
concluded that it would perform a multi-department review of broadband that included USDA
and would follow-up on our 2005 and 2009 audit report findings and recommendations, we
deferred to GAO and postponed our initial reviews of BIP until GAO had finished its work. This
report presents the results of our first phase of work. OIG has initiated a second phase to assess
RUS’ controls over BIP awardees’ fulfillment of their grant and loan/grant agreements.

Objectives
Our audit objectives were to assess RUS’ internal controls over the approval of BIP loan and
grant applications. Specifically, we were to determine if: (1) RUS’ corrective actions
adequately addressed prior OIG and GAO broadband audit recommendations as they relate to
BIP; (2) RUS’ controls were adequate to ensure BIP participants and projects met eligibility
requirements; (3) RUS established effective controls over contractor reviews of BIP applications;
(4) RUS effectively coordinated BIP with NTIA and FCC; (5) RUS took actions to mitigate the
risks of overbuilding in service areas; and (6) RUS’ definitions of “unserved” and “underserved”
areas met the intent and purpose of the Recovery Act.

In the conduct of this audit, we determined that RUS had taken corrective action adequate to
address prior OIG and GAO broadband audit recommendations as they relate to BIP; that RUS’
controls over contractor reviews of BIP applications were adequate; and that RUS coordinated
the administration of BIP with NTIA and FCC as required.




13
  The Recovery Act also mandates that OIG provide oversight of programs, grants, and activities funded by the
Recovery Act and administered by the U.S. Department of Agriculture (USDA).

4     AUDIT REPORT 09703-0001-32
Section 1: Broadband Initiatives Program (BIP)

Finding 1: RUS Approved BIP Projects That Overlap Preexisting RUS-
Subsidized Projects

OIG found that RUS funded BIP projects that sometimes overlapped preexisting RUS-subsidized
broadband projects. While the first round NOFA was silent on the eligibility of such overlapping
projects, the second round NOFA specifically stated that areas already served by a RUS
incumbent service provider were not eligible for subsequent funding. We found that RUS
funded 4 of 86 sample awards—1 in round one and 3 in round two—in areas that were already
served by other RUS-subsidized providers. 14 This occurred because RUS did not have exact
service area maps for its preexisting funded providers; consequently, it was unable to compare
applicants’ proposed areas of service with areas that were being served by preexisting awards.
For round two, RUS established a 10 percent de minimis standard for geographic overlap, even
though this standard contradicted its NOFA. OIG notes, however, that without precise maps,
correctly judging de minimis overlap would be difficult. As a result, RUS officials awarded
funding totaling $5.3 million 15 for overlapping services in four project areas, potentially
jeopardizing the financial feasibility and sustainability of preexisting RUS-funded broadband
projects. 16 Based on our audit sample results, we estimate that 10 projects overlap preexisting
RUS projects. 17

The NOFA for the second round specifically states that “for all applications, the existing service
area of RUS borrowers in which they provide broadband service shall not be eligible…. In
addition, the service areas of Awardees under the first round … NOFA shall also be ineligible
for funding.” 18 RUS’ applications guide and policy manual for the second round agrees with this
requirement in that it states that “existing service areas of RUS borrowers in which they provide
broadband service are not eligible for BIP funding.” 19 Moreover, this prohibition is consistent
with prohibitions under other RUS broadband programs, which provide, generally, that RUS will
not fund broadband applications in communities served by existing RUS broadband borrowers
since loan security for an existing borrower may be at risk should RUS fund a competing service.
There was, however, no such prohibition in the first round NOFA, which RUS issued jointly
with NTIA for BIP and BTOP. According to RUS officials, the decision to not include the


14
   A RUS incumbent service provider is a broadband provider funded by RUS either through another RUS
broadband program or through the first round of Recovery Act funding.
15
   Exhibit A summarizes the monetary results for our audit report.
16
   One overlapping project in round one totaled approximately $1,942,391, and three overlapping round two awards
totaled approximately $3,316,160.
17
   We are 95 percent confident that between 4 and 19 projects overlap preexisting RUS projects. For additional
sample design information, see exhibit F.
18
   75 FR 3827, January 22, 2010.
19
   RUS Broadband Initiatives Program Round Two Application Guide–Last Mile and Middle Mile Projects,
March 9, 2010. Policy Manual for Implementing Round 2 of the Broadband Initiatives (BIP) Program: Last Mile
and Middle Mile Applications, version 5.1, September 1, 2010. NOTE: The “Summary of Notable Changes” at the
forefront of the policy manual states that version 5.0, submitted June 1, 2010, was revised to allow an applicant’s
service areas to overlap by no more than 10 percent with existing RUS borrower and round one BIP/BTOP awardee
service areas. However, that revision is not reflected in version 5.1.

                                                                         AUDIT REPORT 09703-0001-32             5
prohibition in the first round NOFA was made at a level higher than USDA because of the joint
notice with NTIA, and that decision was contrary to RUS’ position. In the first round, existing
RUS borrowers were treated like any other incumbent, and RUS took their existing service areas
into consideration when determining the eligibility of the applicant’s proposed funded service
areas.

Despite the second round prohibition against providing funding to areas that already had a
preexisting RUS-subsidized provider, RUS approved three applications to serve areas that
already had service. RUS officials stated that they wanted to be fair to applicants and, since they
did not have detailed maps for the preexisting providers and could not be certain where overlap
was occurring, they decided to allow some overlap. They did this despite RUS’ policy to
generate for each round two application a report that included applicant-identified communities
within each service area, communities identified using the applicant-drawn service area shape(s),
and communities included in a RUS-provided list of communities currently receiving broadband
service from a RUS borrower. This report was specifically designed to help determine if any
portion of an application’s service area overlapped with the RUS-identified community of an
existing RUS borrower that provided broadband. 20

OIG agrees that RUS did not have the maps it needed to precisely determine the geographic
service areas covered by preexisting providers. However, RUS did have records of the
communities served by existing providers. By comparing those communities to those in the BIP
service areas, OIG was able to determine the numbers of overlapping households. Due to the
inadequate maps, we excluded areas outside of these communities, which preexisting borrowers
may also have been servicing. It was possible, in other words, to identify overlap in many areas,
especially the more populous ones. RUS concurred with the identified overlaps.

Additionally, we found that RUS approved one award in the first round of funding for an area
that overlapped preexisting coverage by 2,932 households, at an estimated cost of $1.9 million.
While the NOFA for the first round did not prohibit funding for areas that were already being
served by an existing RUS provider, OIG questions the decision to fund overlapping coverage.
The business prospects of the preexisting provider, who had received a loan of $35.5 million in
2007, could have been harmed by this decision. A small rural market like the one in
consideration may not be able to support multiple competing services, and RUS may be, in
effect, undercutting some of its providers by funding competition (see exhibit B).

Finally, when RUS determined whether preexisting RUS-funded service existed, it did not
consider its own Community Connect Grant Program projects because of the transmission speed
of those projects. 21 These projects involved transmission service at a minimum speed of


20
   Policy Manual for Implementing Round 2 of the Broadband Initiatives (BIP) Program: Last Mile and Middle
Mile Applications, version 5.1, September 1, 2010, chapter 4, III.A.3.
21
   Community Connect grants are made to communities in the most rural, economically challenged areas where
loans would not be sustainable. Individuals are not eligible to apply. Funds are used to construct, acquire, or lease
facilities to deploy broadband to residents, businesses, and essential community facilities such as police and fire
stations, libraries, schools, and health care clinics. Each project requires matching contributions, must serve a rural
area where broadband service does not exist, must provide services to critical communities free of charge for
2 years, and must offer basic service to all premises within the service area.

6      AUDIT REPORT 09703-0001-32
200 kilobits per second (kbps) from the provider to the consumer (downstream) and from the
consumer to the provider (upstream). However, because the definition of broadband for BIP was
speeds of at least 768 kbps downstream and 200 kbps upstream, RUS concluded that the
communities being served by the Community Connect Grant Program did not have access to
broadband.

We found that three BIP applications (outside our sample) were funded to provide service in
communities that were funded under the Community Connect Grant Program in recent years.
From 2005 to 2007, these providers were awarded grant funds and would be eligible for
reimbursement of expenses for 3 years. Given that these projects were required to provide free
service to community-critical facilities for the first 2 years of operation, approximately
$1.5 million of grant funding could be put in jeopardy by RUS’ decision to fund subsequent
overlapping service at a faster broadband service speed.

RUS is in the process of enhancing its Broadband Program Mapping Tool to include maps of the
service areas for existing providers under both the Community Connect Grant Program and the
Rural Broadband Access Loan and Loan Guarantee Program. 22 Specifically, RUS anticipates
that, beginning in the second quarter of FY 2013, such existing (and future) providers will be
able to use the mapping tool to enter maps of their service areas. These maps will facilitate
identification of areas in which a Broadband Program applicant’s service area coincides with an
existing RUS borrower’s or grantee’s service area and help prevent overlapping RUS-funded
broadband service.

OIG is concerned about RUS’ inconsistency with regard to overbuilding competing RUS-funded
broadband projects in rural areas where, by definition, there are few potential subscribers and a
relatively narrow margin for profit. For the second round of funding, RUS prohibited BIP
funding in areas with preexisting RUS-funded providers, but then contradicted its own
prohibition. For the first round of funding, RUS allowed such overlapping without exception.
We maintain that neither decision contributed to extending broadband to rural residents who lack
access to the technology.

Recommendation 1
Assess each BIP-funded project overlapping existing RUS-subsidized providers and, in
consultation with the Office of the General Counsel, remove the overlapping areas from the BIP
project service area, as practicable.

22
  Currently, RUS’ Broadband Loan and Loan Guarantee Program (Broadband Program) Mapping Tool is used by
those interested in applying for funding under the Broadband Program. The mapping tool’s service area map shows
the service areas for pending and approved Broadband Program applications, approved BIP infrastructure
applications, and approved round one BTOP last mile applications. It does not show the service areas for approved
round two BTOP last mile applications, for pending or approved Community Connect Grant Program applications,
or for Broadband Program applications filed prior to March 14, 2011 (the effective date of the interim rule that
requires Broadband Program applicants to include a map of each service area using the mapping tool). A
November 16, 2012, proposed rule (77 FR 68705) will require Community Connect applicants to submit, through
the mapping tool, maps that identify their service area boundaries. NOTE: RUS’ mapping tool is different than the
comprehensive nationwide inventory map of existing broadband service capability and availability in the United
States that the Recovery Act requires NTIA to develop and maintain.

                                                                        AUDIT REPORT 09703-0001-32            7
Agency Response
In the agency’s response, dated March 18, 2013, Rural Development officials stated RUS
provided information to OIG demonstrating that RUS analyzed areas of overlap prior to making
awards. To ensure the most accurate assessment of proposed service areas, RUS sent general
field representatives (GFR) to the service areas to gather information with respect to applications
in round two that potentially overlapped with the service areas of existing RUS-financed
projects. The reports prepared by the GFRs contained, among other things, the number of
households that overlapped with such existing projects, which the agency evaluated when
making an award. The overlaps had little or no impact on the financial feasibility of each
project. Moreover, the Office of the General Counsel (OGC) was consulted about potential
overlaps and assisted RUS in establishing the de minimis standards that were considered when
approving the awards. With regard to the recommendation that RUS remove the overlapping
areas from the BIP project service area, due to existing contractual arrangements with each
awardee, and with the concurrence of OGC, RUS cannot retroactively change the terms of the
awards and remove service areas from funded projects.

OIG Position
We accept Rural Development’s management decision based on its assertion that, with the
concurrence of OGC, RUS cannot retroactively change the terms of the awards and remove
service areas from funded projects. However, the evidence RUS provided to OIG during the
audit did not demonstrate that, when making awards, RUS evaluated the impact of the overlaps
on the financial feasibility of both the overlapping BIP and existing RUS-subsidized projects.

Recommendation 2
To the extent allowed by authorizing legislation, for future programs take steps to avoid funding
broadband projects in areas that are already served by RUS-subsidized providers.

Agency Response
Rural Development officials stated that the existing RUS broadband program regulations contain
a prohibition on any overfunding, de minimis or otherwise, with respect to any program
administered by RUS, not just the Broadband Program. See Title 7, Code of Federal
Regulations, part 1738, section 102, paragraph (a)(4), 2013 edition (7 CFR 1738.102(a)(4)
(2013)). 23

Notwithstanding the above, the agency cannot ensure that this policy will always continue in the
future. A policy of non-overlap must always be weighed against the present needs of rural
Americans and take into consideration the modernization and upgrading of telecommunication
facilities.


23
     The agency’s written response cites 7 CFR 1738.102(4).

8        AUDIT REPORT 09703-0001-32
OIG Position
We recognize the existing regulation cited by the agency prohibits any part of the funded service
area from overlapping with the service area of current RUS borrowers and grantees. We also
recognize that the policy that prohibits overlap could change in the future. However, as reported
in Finding 1, the second NOFA—like the current program—specifically prohibited BIP funding
for areas that were already being served by an existing RUS provider. In order to reach
management decision, RUS needs to describe the steps the agency will take to avoid overlap in
future programs undertaken with the overlap restriction in place. In addition, RUS needs to
describe the steps it will take, in the interest of accountability and transparency, to publicize
future changes to the policy of non-overlap, to include publicizing the rationalization for such
changes.

Recommendation 3
Implement controls to ensure that existing RUS borrowers’ and grantees’ service areas maps are
entered into the Broadband Program Mapping Tool.

Agency Response
Rural Development officials stated that RUS agreed with OIG’s recommendation and is
currently developing enhancements to the Mapping Tool that will allow existing borrowers and
grantees to submit their service area maps. It is anticipated that these enhancements will be
completed by December 30, 2013.

OIG Position

While we agree with RUS’ enhancements of the Mapping Tool, in order to reach management
decision, the agency needs to describe the controls it will implement to ensure that the existing
RUS borrowers’ and grantees’ service areas maps are entered into the Broadband Program
Mapping Tool.




                                                               AUDIT REPORT 09703-0001-32       9
Finding 2: RUS Approved BIP Projects That Did Not Comply With
Published Project Completion Timeframes
Of the 86 BIP awards reviewed, we found that RUS approved 10 of the sampled
81 infrastructure awards, totaling over $91 million, even though the applications did not
demonstrate that the proposed projects would be completed within the 3-year timeframe required
and published in the NOFAs. RUS officials explained that the 3-year timeframe was an
administrative decision and not a requirement, and that they did not reject applications if the only
concern was whether the project would be completed timely. OIG maintains, however, that
since the timely implementation of these projects was a key aspect of the Recovery Act, RUS
should have awarded these funds only for projects that would meet its requirement. By stating
this requirement in the published NOFAs, but not following it in practice, RUS created a
situation where some applicants may not have applied, thinking they would have been
disqualified, even as the agency approved others who did apply but did not meet the requirement.
Based on our audit sample results, we estimate that 34 awards did not demonstrate that the
proposed projects would be completed within the published 3-year timeframe. 24

The Recovery Act required that priority be given to “activities that can commence promptly
following approval.” According to both NOFAs, RUS required that the projects “must be fully
completed” no later than 3 years following the date of issuance of the award. 25 (We also noted
that RUS’ March 14, 2011, interim rule for its Rural Broadband Access Loan and Loan
Guarantee Program requires that all “applicants agree to complete the build-out of the broadband
service described in their application within [3] years from the date the borrower is notified that
loan funds are available.”) 26

Of the 86 awards we reviewed, we found that RUS approved 9 infrastructure projects where
funds from non-BIP sources were necessary to complete the project, but would not be spent until
after 3 years had passed. When we spoke to RUS officials about how these projects did not meet
the agency’s requirements for timeliness, they stated that the projects’ (non-BIP) expenditures
after 3 years were to “support additional subscribers coming online and utilizing the fully
constructed network.” RUS indicated that the “require[ment] to build a complete and functional
network” was what was meant by project completion. From RUS’ perspective, allowing
additional non-BIP expenditures after 3 years to add subscribers was reasonable. OIG contends
that, since the project, as submitted, included these additional subscribers, the project was not
complete if the additional subscribers had not already been brought online at the time the
network was complete. In a tenth case, we found RUS approved an infrastructure project,
funded solely by BIP, for which the application did not demonstrate the project would be fully
complete within 3 years of the award date—the build-out timeline did not account for the
expenditure of all BIP funds by the end of year three.




24
   We are 95 percent confident that between 16 and 52 projects did not demonstrate that the proposed projects would
be completed within the 3-year timeframe. For additional sample design information, see exhibit F.
25
   74 FR 33110, July 9, 2009, and 75 FR 3826, January 22, 2010.
26
   76 FR 13789, March 14, 2011.

10      AUDIT REPORT 09703-0001-32
Additionally, in 2011, RUS extended the deadline for project completion until September 2015,
which gave all these projects, if they applied for the extension, 5 years to complete their projects.
RUS provided “This action is necessary to address issues beyond the control of awardees and the
agency... . Weather, seasonal conditions and project volume have posed challenges for
interagency and intergovernmental review processes, suppliers of goods and services and
awardees.” This decision introduced further contradiction to the stated intention of the Recovery
Act, which was to fund projects that would be implemented quickly.

OIG maintains that, for future broadband programs, RUS needs to improve how it communicates
its expectations for when projects will be completed and it needs to better define what it means
to complete a project. Once it establishes clear expectations, it must follow them as it
implements its programs so that all applicants and program participants will be treated fairly.

Recommendation 4
To the extent allowed by authorizing legislation, for future broadband programs publish and
follow clearly defined project completion expectations.

Agency Response
In the agency’s response, dated March 18, 2013, Rural Development officials stated that RUS
believes that pursuant to BIP they published and followed clearly defined project completion
expectations. RUS expects to do the same in future program implementation efforts. As
determined by OIG, all awards approved under BIP were found to meet the eligibility
requirements contained in the NOFA.

Additionally, RUS notes that under the agency’s Rural Electrification statute, broadband
borrowers are required to “agree to complete build-out of the broadband service described in the
loan application by not later than 3 years after the initial date on which proceeds from the loan...
are made available” (emphasis added). See Title 7, United States Code, section
950bb(d)(1)(A)(iii). This requirement was clearly explained in the regulation that implemented
this statute. See 7 CFR 1738.212.

OIG Position
We recognize the current 3-year build-out requirements in the cited statute. However, the
regulation cited in the agency’s response does not clearly explain that statutory requirement:
instead, that regulation states the network design and build-out schedule must demonstrate
“project completion” within 3 years from the date the agency notifies the applicant that loan
funds are available, 27 and the regulation does not define “project” or “project completion.” (This
is similar to the situation we identified with BIP, where both the first and second round NOFAs
provide that BIP “projects” must be fully completed no later than 3 years following the date of



27
     7 CFR 1738.212(a)(7)(ii) (2013).

                                                               AUDIT REPORT 09703-0001-32        11
issuance of the award, 28 and neither NOFA includes a definition for “project” or “project
completion.”)

In order to reach management decision, RUS needs to describe the steps the agency will take to
publish and follow clearly defined project completion expectations.

Additionally, to clarify the statement made by Rural Development officials in the agency’s
response, OIG reviewed only a sample of the BIP awards and did not question the eligibility of
any awards in our sample. We did not determine that all awards approved under BIP were found
to meet the eligibility requirements contained in the NOFA.




28
   74 FR 33109, July 9, 2009, at IV.A.6; 74 FR 33110, July 9, 2009, at V.C.1.b; and 75 FR 3826, January 22, 2010,
at III.B.4 and IV.C.2.

12      AUDIT REPORT 09703-0001-32
Finding 3: RUS Followed Recovery Act’s Language but Rural America
Could Receive Additional Benefit From an Increased Focus of Funds on Rural
Residents Lacking Access to Broadband
RUS complied with provisions of the Recovery Act as the agency implemented BIP. However,
we believe the agency could have focused more on promoting economic development in those
areas where rural residents lack broadband access. In addition to complying with provisions of
the Recovery Act, RUS officials stated that the program was intended to promote economic
development rather than to bring broadband to rural citizens of the country that would not
otherwise have the technology. Due to RUS’ decisions to define eligible service areas
geographically, rather than demographically, and also to allow BIP service areas to overlap, the
agency did not adequately ensure that broadband infrastructure projects funded by BIP actually
provided access to rural residents who would otherwise lack access.

The Recovery Act specified six priorities for awarding BIP funds. The Recovery Act did not
assign an order of precedence to these six priorities. One of the six priorities was for projects
that proposed to provide service to the highest proportion of rural residents who did not have
access to broadband service. Under the two BIP funding rounds, RUS funded three basic project
types: broadband infrastructure projects, satellite projects, and technical assistance projects. For
satellite projects, RUS required that BIP funds be expended only to reimburse costs for the
provision of broadband service to unserved rural premises. 29 For technical assistance projects,
RUS required that BIP funds be used to fund the proposed technical assistance for regional
broadband development planning activities in rural areas.

OIG recognizes that RUS did focus about 3 percent of total BIP program-level funding on
unserved rural areas with its satellite and technical assistance projects. We contend that with the
$3.4 billion it spent for infrastructure projects, the agency could have provided increased focus
on rural areas without access.

           Defining Eligible Service Areas Geographically, Not Demographically

           The Recovery Act states that, overall, at least 75 percent of the area served by a BIP
           project must be a rural area without sufficient access to high-speed broadband. Further,
           the guidelines give USDA the authority to determine which areas meet this standard.

           When RUS implemented the program, it identified service areas as eligible if 75 percent
           of the geographic area was rural. The agency did not consider where the premises in the
           area were located, however. For example, agency officials determined that one project
           on the southern side of Chicago was serving an area that was 91 percent rural and
           9 percent nonrural, geographically. OIG determined, however, that the 9 percent of the
           geographic area that was nonrural contained 63 percent of the premises for this project.
           According to RUS’ records, for the 64 round two applications reviewed, 7 had more than
           25 percent of the premises in nonrural areas, and 3 of these 7 had more than 60 percent of


29
     Premises include households, businesses, and critical community facilities.

                                                                           AUDIT REPORT 09703-0001-32   13
         the premises in nonrural areas, including 1 that had more than 96 percent of the premises
         in a nonrural area (see exhibit C).

         Moreover, we found that many of the households in BIP-funded service areas already had
         access to broadband. For example, for the project on the southern side of Chicago, RUS’
         records show all of the households (both rural and nonrural) already had access to
         broadband, 30 yet RUS approved the project and awarded $11.2 million in Recovery Act
         funding. With $2.2 billion in grants and $1.2 billion in loans from the Recovery Act,
         RUS approved broadband infrastructure projects that provided access to broadband for a
         total of 3,155,906 premises that included 2,759,457 households. According to our review
         of 64 round two applications, 52 percent (249,787 of the 484,035) of the households in
         the proposed funded service areas were unserved—234,248 households (48 percent)
         already had broadband access.

         Allowing Projects to Overlap Geographically Without Considering the Number of
         Potential Subscribers in the Overlapping Areas

         RUS also allowed broadband providers to overlap areas of BIP coverage, without
         considering whether the number of potential subscribers in the overlapping area was
         de minimis. This practice also resulted in duplicate broadband coverage, providing
         competing BIP-funded services in a single area.

         Both NOFAs state, generally, that RUS would not fund more than one BIP project in any
         geographical area. 31 If more than one application under the funding round would serve
         any overlapping geographic area, the application with the highest score was to be funded;
         other applications for the same area were to be rejected in their entirety unless RUS, at its
         discretion, determined that the extent of the overlap was de minimis (in other words, that
         any overlap was too minimal to matter). The second round NOFA also provided that
         RUS, at its discretion, might readjust round two service areas to eliminate overlapping
         areas between one or more applications. For round one, RUS defined de minimis as less
         than 10 percent of each application’s entire proposed funded service area. For round two,
         RUS increased the de minimis amount to 25 percent of each application’s entire proposed
         funded service area.

         From our 81 sampled infrastructure applications, we identified 6 of 64 round two
         applications overlapping another round two BIP project. 32 Although none of the projects
         overlapped geographically by more than the de minimis standard set by the second round
         NOFA, we noted that the proportion of an applicant’s geographic service area that


30
   In the second round of funding, RUS qualified for funding any rural area in which at least 50 percent of the
premises in the area did not have access to broadband service at the rate of 5 megabits per second (upstream and
downstream combined). RUS determined that those areas lacked high-speed broadband service sufficient to
facilitate rural economic development as required by the Recovery Act. Service offerings for broadband
infrastructure projects must still have been within proposed service areas that were at least 75 percent rural as
required by the Recovery Act.
31
   74 FR 33111, July 9, 2009, and 75 FR 3827, January 22, 2010.
32
   None of the 17 round one applications reviewed overlapped another round one application.

14      AUDIT REPORT 09703-0001-32
        overlaps another applicant’s area does not directly correlate to the proportion of the
        applicant’s potential subscribership (households) in the overlapping area. We contend
        that in rural areas the majority of the households will be within a small geographic area,
        and that allowing geographic overlap without considering population density poses a
        problem: it does not adequately analyze the risk that an applicant’s loss of the
        overlapping households’ broadband subscribership may affect that applicant’s ability to
        generate sufficient revenue to cover expenses. RUS did not document by project the
        effect of the de minimis overlap on the BIP projects’ financial feasibility.

        Four of the 6 sample round two applications with overlap included 807 households that
        were also included in other BIP applicants’ service areas. (There were no households in
        the other two sample applications’ service areas that overlapped other BIP providers.)
        OIG estimates that approximately $1.1 million was expended to provide duplicate
        coverage to the 807 households in the overlapping BIP service areas (see exhibit D).

RUS officials stated they believe they implemented the program following the provisions of the
Recovery Act. They maintain that the purpose of BIP was to promote economic development
and not necessarily to provide broadband service in otherwise unserved rural areas, which was
only one of the six BIP priorities specified in the Recovery Act. RUS officials also stated that
serving unserved rural areas is the purpose of the Community Connect Grant Program. In
addition, RUS officials stated that the agency had enough funds to approve all BIP projects they
determined to be eligible and that, given the abundance of funding, they had no reason to give
strict priority to “projects that provide service to the highest proportion of rural residents that do
not have access to broadband service.” RUS essentially approved all eligible projects. 33 While
we recognize that RUS had the discretion to implement BIP in this manner, if it had defined
eligible service areas demographically and had not overlapped projects, RUS could have
provided greater broadband coverage in rural areas without sufficient access.

OIG does not find that RUS’ decisions concerning the implementation of the Recovery Act
violated the language of the law, but we do believe that RUS could have better implemented BIP
to further rural economic development by ensuring program funds were used to provide
broadband service to rural residents who otherwise lack sufficient access. We maintain that this
is the apparent purpose of BIP, even if the language of the Recovery Act was not precise on all
points. In other documents, such as RUS’ Request for Information, RUS appears to agree,
stating that the purpose of BIP is “to improve access to broadband in rural areas without service
or that lack sufficient access to high-speed broadband service, and to facilitate economic
development.” 34


33
   According to RUS, about 2,090 BIP applications were received, and all eligible applications were approved for
funding. While a few applications at the end of the second round were not funded because the applicants did not
timely provide “second review” documentation, RUS stated those applicants may have been able to get funding
under the regular broadband programs.
34
   74 FR 58940, November 16, 2009, states, “[T]he Recovery Act expands RUS’s existing authority to make loans
and provides new authority to make grants for the deployment and construction of broadband systems in rural
America. The purpose of the expanded RUS broadband authority is to improve access to broadband in rural areas
without service or that lack sufficient access to high-speed broadband service, and to facilitate economic
development.”

                                                                       AUDIT REPORT 09703-0001-32            15
After our analysis of RUS’ administrative decisions and definitions based on the Recovery Act
statutory language and requirements, we concluded that rural America would benefit from RUS
focusing its funding on projects that propose to serve rural premises without broadband access.
Although RUS implemented BIP in a manner that did not violate the provisions of the Recovery
Act, RUS’ controls provided less assurance that broadband infrastructure projects funded by BIP
provided access to broadband for rural residents who lack access to that important technology.

Recommendation 5
To the extent allowed by authorizing legislation, for future broadband programs implement
controls to ensure broadband funds are used effectively to provide broadband to rural residents
who lack such access.

Agency Response
In the agency’s response, dated March 18, 2013, Rural Developments officials stated that,
despite RUS’ best efforts to direct funds only to rural areas without broadband access, the
business case for sustainable projects in these areas is hard to achieve, given low density,
difficult to construct areas, and the inability to attract investors to areas with low returns, which
is why many of these areas still do not have service. Despite 100 percent grant financing, many
projects in these rural areas are not sustainable long term after the projects have been built, and
will remain so, until some type of continuing financial support is addressed.

RUS will continue its practice of evaluating new authorizing legislation to ensure that, to the
greatest extent possible, programs are established with a goal of providing broadband service to
rural residents that lack such access.

OIG Position
We accept Rural Development’s management decision. However, we remain concerned that,
despite RUS’ “best efforts to direct funds only to rural areas without broadband access” and its
“practice of evaluating new authorizing legislation to ensure, that to the greatest extent possible,
programs are established with a goal of providing broadband service to rural residents that lack
such access,” RUS continues to fund projects in other areas as noted in Finding 3.

Recommendation 6
Determine, for overlapping BIP projects, the number of households in the overlapping areas;
consider the impact of those households on the financial feasibility of each of the overlapping
BIP projects; and adjust the awards, as necessary, to carve out overlapping areas and better
ensure the financial feasibility and sustainability of the BIP projects.

Agency Response
Rural Development officials stated that, of the 6 projects which OIG found to overlap other
projects, 3 of the projects had respectively 0, 0, and 2 households overlapping, out of 3,841 total

16     AUDIT REPORT 09703-0001-32
households. The overlap in these projects is essentially non-existent. Of the 3 remaining
projects cited by OIG, 2 had overlaps which were extremely de minimis: 1 project overlapped
367 households of a total 368,028 households with another project, or 0.09 percent; the other
project overlapped 278 households of a total 21,033 households, or 1.32 percent. Only 1 project
of the 6 had an overlap near the 10 percent cap, having 160 households of a total
1,660 households overlap with another project, or 9.64 percent. That project was determined to
have no effect on the other BIP award. As such, the agency cannot agree that these awards, or
the awards that overlapped with them, were a financial threat to the feasibility of any overlapping
project that was funded. Moreover, the agency cannot take steps to carve out these areas due to
its existing contractual obligations.

OIG Position
We accept Rural Development’s management decision based on its assertion that, due to existing
contractual obligations, RUS cannot carve out the overlapping BIP areas.

Recommendation 7
To the extent allowed by authorizing legislation, for future broadband programs ensure
overlapping service areas are not funded under the same program.

Agency Response
Rural Development officials stated that the issue of funding an overlap of service areas is really
the same issue as future funding over existing areas of RUS-subsidized providers and referred
OIG to the agency’s response to Recommendation 2.

OIG Position
We do not see the issue of overlapping service areas under the same program—particularly under
the same funding round—as being factually the same as the issue of overlapping a new RUS-
subsidized service area on top of an existing RUS-subsidized service area (as in Finding 1,
Recommendation 2). A fundamental difference between the two issues is that in cases where
there are multiple applications under the same program funding round that would serve the same
geographic area, RUS may determine which applications to fund, if any, and might readjust
service areas to eliminate overlapping areas between applications. Nonetheless, in the agency’s
written response to Recommendation 2, Rural Development officials state that—notwithstanding
the existing RUS broadband program regulation’s prohibition on any overfunding, de minimis or
otherwise, with respect to any program administered by RUS—a policy of non-overlap must
always be weighed against the present needs of rural Americans and take into consideration the
modernization and upgrading of telecommunication facilities.

We recognize the existing regulation cited by the agency (in its response to Recommendation 2)
prohibits any part of the funded service area from overlapping with the service area of current
RUS borrowers and grantees. That regulation goes on to provide that a service area may be
eligible only if no part of the funded service area is included in a pending application before

                                                              AUDIT REPORT 09703-0001-32       17
RUS seeking funding to provide broadband service; if two or more applications are submitted for
the same service area, a lending decision must be made on the application that was submitted to
the agency first before a lending decision can be made on the other application(s). 35 We also
recognize that the policy that prohibits overlap could change in the future.

In order to reach management decision, in the interest of accountability and transparency and to
ensure equal and fair access to Federal awards and funds, RUS needs to describe the steps it will
take to publicize future changes to the policy of non-overlap (of service areas under the same
program), to include publicizing the rationalization for such changes.




35
     7 CFR 1738.102(a)(5) (2013).

18         AUDIT REPORT 09703-0001-32
Scope and Methodology
We conducted our audit of RUS’ BIP from June 2011 through September 2012. Our audit
focused on RUS’ internal controls for how it planned, implemented, and approved loan and grant
applications for Recovery Act funds. We conducted site visits to RUS’ national office in
Washington, D.C., and the headquarters offices of ICF International—one of RUS’ contract
companies—in Fairfax, Virginia.

To accomplish our objectives, we:

     •   Reviewed the Recovery Act and other laws pertaining to BIP;
     •   Reviewed regulations, procedures, and guides governing BIP and provided by RUS;
     •   Examined RUS’ instructions to its general field representatives and field accountants to
         implement BIP;
     •   Interviewed responsible RUS officials at the national level to obtain management’s
         assertions of the controls used in making the BIP awards;
     •   Interviewed responsible ICF International officials to determine the controls used in
         reviewing applications and how they used the RUS mapping tool to determine service
         area eligibility;
     •   Reviewed USDA’s Federal Managers’ Financial Integrity Act report for material internal
         control weaknesses applicable to the scope of the audit and any corrective action taken or
         planned to address such weaknesses;
     •   Reviewed RUS’ BIP risk assessment;
     •   Reviewed RUS’ corrective actions taken on prior OIG and GAO broadband audit report
         recommendations as they pertained to BIP;
     •   Interviewed responsible NTIA officials to determine the coordination efforts of USDA
         with the Department of Commerce, as directed by the Recovery Act;
     •   Examined the methodologies RUS used in making key decisions in prioritizing the
         applications; and
     •   Statistically sampled and reviewed 86 ($783,895,685) of 284 ($3,156,641,638) approved
         applications (BIP awards) to test internal controls over the approval process. 36

As RUS did not use a computerized system in approving broadband applications, we did not
evaluate the effectiveness of an information system or its controls. In addition, RUS did not rely
solely upon the RUS mapping tool to determine if an area was eligible for BIP funding: RUS
required its Recovery Act field team to verify the eligibility of proposed funded service areas;
therefore, we did not evaluate the mapping tool’s effectiveness.




36
  The audit universe of 284 awards consisted of the 320 applications approved for ($3,529,090,889) BIP funding,
less the 8 awards for which the recipients’ headquarters were located in Alaska (6), Hawaii (1), and American
Samoa (1), as well as the 28 awards that were rescinded at the time of sampling. For additional sample selection and
design information, see exhibits E and F.

                                                                        AUDIT REPORT 09703-0001-32             19
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




20     AUDIT REPORT 09703-0001-32
Abbreviations
BIP ............................ Broadband Initiatives Program
BTOP ........................ Broadband Technology Opportunities Program
CFR ........................... Code of Federal Regulations
FCC ............................ Federal Communications Commission
FR .............................. Federal Register
FY ............................. Fiscal Year
GAO .......................... Government Accountability Office
kbps ........................... kilobits per second
NOFA ........................ Notice of Funds Availability
NTIA ......................... National Telecommunications and Information Administration
OIG ........................... Office of Inspector General
Recovery Act ............ American Recovery and Reinvestment Act of 2009
RUS ........................... Rural Utilities Service
USDA ........................ U.S. Department of Agriculture




                                                               AUDIT REPORT 09703-0001-32   21
Exhibit A: Summary of Monetary Results
Exhibit A summarizes the monetary results for our audit report by finding number.

     Finding     Recommendation        Description         Amount              Category
       1                 2           BIP Overlaps           $5,258,551 Funds To Be Put To
                                     Preexisting                       Better Use –
                                     RUS-Funded                        Management or
                                     Broadband                         Operating
                                     Services                          Improvement/Savings
       3                 7           Overlapping            $1,119,868 Funds To Be Put To
                                     BIP Coverage                      Better Use –
                                                                       Management or
                                                                       Operating
                                                                       Improvement/Savings
                        Total                               $6,378,419




22      AUDIT REPORT 09703-0001-32
Exhibit B: Overlapping Preexisting RUS-Subsidized Projects
Exhibit B presents information on the sample applications that we determined overlapped a
community already approved under another RUS broadband program.

This table shows the sample application number, corresponding existing RUS provider ID
number, numbers of households within the overlapping community, and cost per premises, all
according to RUS. We added the total excess cost. 37

 Application            Existing           Total                Cost per        Total Excess
    ID                   RUS             Number of              Premises           Cost
                      Provider ID       Households
                                         Within the
                                        Overlapping
                                        Community
        1245             OK1107                2,932                 $1,352      $1,942,391*
        5266             GA1104                  605                 $1,072        $648,560
        5624             OK1108                  490                 $3,915      $1,918,350
        5271             MO1102                  333                 $2,250        $749,250
                                    Total                                        $5,258,551
*Applicant requested only 49 percent of the project cost from RUS.


This table shows the BIP applicant ID and the correlative Community Connect Grant Program
project location (community), FY approved, and grant amount. We added the 2000 Census
Bureau total number of households for the community.

 Application             Location of                Fiscal Year         2000 Census            Community
    ID                Community Connect             Project Was         Bureau Total          Connect Grant
                          Project                    Approved            Number of              Awarded
                                                                         Households
        7360          Pioneer, Louisiana                 2005                     65                   $442,500
        1257          Smithville, Oklahoma               2006                     50                   $417,544
        2512          Darbyville, Ohio                   2007                     94                   $603,200
                                       Total                                                         $1,463,244




37
     Total number of households within the overlapping community, multiplied by cost per premises.

                                                                         AUDIT REPORT 09703-0001-32         23
                 Exhibit C: Rural Households Without Service
                 Exhibit C presents a list of the sample round two applications showing RUS’ numbers of
                 households, unserved households, rural premises, percent of rural area targeting, 38 percent of
                 rural residents served in unserved areas, distances from the closest nonrural areas, and closest
                 nonrural area names. We added information on the total premises and Census Bureau 2000
                 population for the closest nonrural area, and calculated the percent of nonrural premises. 39




                                                                                                                                                                                    Percent of Rural Area Targeting




                                                                                                                                                                                                                                                                                 Census Bureau 2000 Population
                                                                                                                     Percent of Nonrural Premises




                                                                                                                                                                                                                                                    Closest Nonrural Area Name
                                                                                                                                                       Percent of Rural Residents
                                                                                                                                                       Served in Unserved Areas




                                                                                                                                                                                                                      Closest Nonrural Area




                                                                                                                                                                                                                                                                                 Closest Nonrural Area
                                                                                                                                                                                                                      Distance (Miles) from
                                                Unserved Households
                        Total Households




                                                                                                    Rural Premises
Application ID




                                                                            Total Premises




4216                    2,551                              1,528                    2,781                 2781                                  0.00              59.90             100.00                                       19           Harrisonburg, VA                             40,468
4269                             765                                  467           1,010              1,010                                    0.00              61.00             100.00                                       40                       Bend, OR                         52,029
4470                    5,237                              4,505                    5,998              5,998                                    0.00              86.00             100.00                                       36            Watertown, NY                               26,705
4512                             959                                  959                    995               994                              0.10         100.00                 100.00                                           3           Corvallis, OR                             49,322
4520                    1,221                                          0            1,280              1,280                                    0.00                    0.00        100.00                                       13           Kansas City, MO                        588,411
4790                             873                                   0            1,036                      844                   18.53                              0.00        100.00                                       36            Sioux City, IA--                            96,938
                                                                                                                                                                                                                                                      NE--SD
4925                    1,007                              1,007                    1,433              1,433                                    0.00         100.00                 100.00                                       31              Santa Fe, NM                              62,203
5045                                   62                              0                     260               260                              0.00                    0.00        100.00                                       30             Hinesville, GA                             30,392
5094                             826                                   0            1,041              1,041                                    0.00                    0.00        100.00                                       44               Ottumwa, IA                              24,998
5133                   11,384                              3,467               13,113               11,560                           11.84                        30.50                   98.90                                      0          Lumberton, NC                              20,795
5166                    1,016                                         855           1,721              1,016                         40.96                        84.20             100.00                                           3           Asheville, NC                             68,889
5258                    1,096                                          0            1,410              1,410                                    0.00                    0.00        100.00                                       51                Aurora, CO                        276,393
5261                    6,141                              4,423                    6,483              5,548                         14.42                        72.00             100.00                                           0         Fayetteville, AR                            58,047
5262                   39,673                       29,427                     54,940               38,889                           29.22                        74.20             100.00                                           0         Jacksonville, FL                      735,617
5265                    8,977                              4,687               20,659               15,164                           26.60                        52.20                   99.60                                      0             Dalton, GA                              27,912
5266                    3,383                              2,253                    4,352              3,556                         18.29                        66.60             100.00                                           8        Chattanooga, TN-                       155,554
                                                                                                                                                                                                                                                           -GA
5268                   34,006                       13,207                  128,643                102,569                           20.27                        38.80             100.00                                           0          Richmond, KY                               27,152
5271                    5,736                              4,585                    4,590              4,195                                    8.61              79.90             100.00                                       10            Springfield, MO                       151,580
5272                             752                                  425           1,182              1,004                         15.06                        56.50             100.00                                           2            Jackson, MS                        184,256
5279                             599                                  466                    587               508                   13.46                        77.80             100.00                                           2         Jamestown, NY                               31,730
5291                   23,188                       15,612                     33,582               29,565                           11.96                        67.30             100.00                                           1           Pittsburgh, PA                      334,563



                 38
                      Percent of BIP service area that RUS determined to be rural.
                 39
                      Total Premises minus Rural Premises, divided by Total Premises.

                 24                        AUDIT REPORT 09703-0001-32
                                                                                                                                                                                 Percent of Rural Area Targeting




                                                                                                                                                                                                                                                                                   Census Bureau 2000 Population
                                                                                                              Percent of Nonrural Premises




                                                                                                                                                                                                                                                 Closest Nonrural Area Name
                                                                                                                                                Percent of Rural Residents
                                                                                                                                                Served in Unserved Areas




                                                                                                                                                                                                                   Closest Nonrural Area




                                                                                                                                                                                                                                                                                   Closest Nonrural Area
                                                                                                                                                                                                                   Distance (Miles) from
                                     Unserved Households
                 Total Households




                                                                                        Rural Premises
Application ID




                                                                 Total Premises
5292              2,778                         1,445                    3,869             3,406                              11.97                        52.00                 100.00                                           0           Columbia, SC                             116,278
5324              4,662                                     47           5,901             5,901                                         0.00                    1.00            100.00                                       16            Winchester, VA                                   23,585
5337              2,399                         2,258                    3,730             1,321                              64.58                        94.10                 100.00                                           6          Pine Bluff, AR                                  55,085
5339                      657                               0                     689              689                                   0.00                    0.00            100.00                                       31             Fort Dodge, IA                                  25,136
5382                      175                              130                    283              283                                   0.00              74.30                 100.00                                       39               Amarillo, TX                            173,627
5392             14,493                         9,103               24,288              24,288                                           0.00              62.80                 100.00                                       26              Santa Fe, NM                                   62,203
5424              2,646                         1,453                    3,950             3,950                                         0.00              54.90                 100.00                                       14           Myrtle Beach, SC                                  22,759
5425                      136                               90                    185              185                                   0.00              66.20                 100.00                                       42                       Bend, OR                              52,029
5430                            62                          0                      87                    87                              0.00                    0.00            100.00                                       53                Greeley, CO                                  76,930
5491              4,928                                    504                    511              511                                   0.00              10.20                 100.00                                           0          Sheboygan, WI                                   50,792
5494              2,955                                    229                    346              346                                   0.00                    7.70            100.00                                       20            Dubuque, IA--IL                                  57,686
5526              1,247                                    299                    310              310                                   0.00              24.00                 100.00                                       18              Ardmore, OK                                    23,711
5529              2,840                                    171                    166              166                                   0.00                    6.00            100.00                                           2             Auburn, NY                                   28,574
5530             10,178                                    452                    428              428                                   0.00                    4.40            100.00                                           7          Tallahassee, FL                           150,624
5549                      665                              177                    226              226                                   0.00              26.60                 100.00                                       15                 Joplin, MO                                  45,504
5562              3,680                                     0            7,083             4,443                              37.27                              0.00            100.00                                       16               Hickory, NC                                   37,222
5582              5,307                                     0            7,442             7,442                                         0.00                    0.00            100.00                                           8              Bristol, TN                                 24,821
5607              9,672                                    610                    832              832                                   0.00                    6.30            100.00                                           0            Concord, NH                                   40,687
5624              6,824                         1,065                             912              912                                   0.00              15.60                 100.00                                           0          Broken Arrow,                                   74,859
                                                                                                                                                                                                                                                       OK
5633              2,830                                    691                    629              629                                   0.00              24.40                 100.00                                           1           Appleton, WI                                   70,087
5635             17,905                         1,594                    1,576             1,576                                         0.00                    8.90            100.00                                           8            Florence, AL                                  36,264
5728              1,185                                     0            1,980             1,980                                         0.00                    0.00            100.00                                       58               Independence,                           113,288
                                                                                                                                                                                                                                                         MO
5729                      641                               0            1,020             1,020                                         0.00                    0.00            100.00                                       32            St. Joseph, MO--                                 73,990
                                                                                                                                                                                                                                                         KS
5730              1,074                                     0            1,582             1,582                                         0.00                    0.00            100.00                                       24                    West Des                                 46,403
                                                                                                                                                                                                                                                  Moines, IA
5731              1,997                                     0            2,372             2,372                                         0.00                    0.00            100.00                                       32                 Ottumwa, IA                                 24,998
5744                      373                               0                     567              564                                   0.53                    0.00            100.00                                           4         Fort Collins, CO                           118,652
5792              1,250                                    754           1,570             1,570                                         0.00              60.30                 100.00                                           4          Woodbury, MN                                    46,463
5818             27,391                         2,437               31,293              31,323                                    -0.10                          8.90            100.00                                           0        Spokane, WA--ID                             195,629
5927              4,634                                     0            5,783             5,783                                         0.00                    0.00            100.00                                           3         Winston-Salem,                             185,776
                                                                                                                                                                                                                                                       NC
6020                            42                          42                    283              283                                   0.00         100.00                     100.00                                   141                 Midland, MI                                    41,685
6057              2,438                                     0            2,595             2,438                                         6.05                    0.00            100.00                                       28               Madison, WI                             208,054


                                                                                                                                                                             AUDIT REPORT 09703-0001-32                                                                       25
                                                                                                                                                                                      Percent of Rural Area Targeting




                                                                                                                                                                                                                                                                                 Census Bureau 2000 Population
                                                                                                                       Percent of Nonrural Premises




                                                                                                                                                                                                                                                    Closest Nonrural Area Name
                                                                                                                                                         Percent of Rural Residents
                                                                                                                                                         Served in Unserved Areas




                                                                                                                                                                                                                        Closest Nonrural Area




                                                                                                                                                                                                                                                                                 Closest Nonrural Area
                                                                                                                                                                                                                        Distance (Miles) from
                                              Unserved Households
                      Total Households




                                                                                                 Rural Premises
Application ID




                                                                          Total Premises
6060                  2,233                              2,233                    4,644             4,689                                  -0.97               100.00                 100.00                                       30             Madison, WI                        208,054
6267              37,480                                             0            1,559             1,322                              15.20                              0.00              97.50                                      0        Longview, WA                               34,660
6325                  5,814                              1,593                    6,937             6,935                                         0.03              27.40             100.00                                           0         Portland, OR--                      529,121
                                                                                                                                                                                                                                                            WA
6389              14,029                                 3,491               16,115                         534                        96.69                        24.90             100.00                                           4         Asheville, NC                             68,889
6596                  1,123                                          25           2,550             2,535                                         0.59                    2.20        100.00                                       17           Watertown, NY                              26,705
7013                                 62                              10                     75                    75                              0.00              16.10             100.00                                       44              Greeley, CO                             76,930
7158                  5,401                                         605           6,543             6,484                                         0.90              11.20             100.00                                       41           Wenatchee, WA                              27,856
7282                  4,221                                          0            5,233             5,233                                         0.00                    0.00        100.00                                       14           Greenville, NC                             60,476
7311                           956                                   0            1,742             1,700                                         2.41                    0.00        100.00                                       66           Burlington, VT                             38,889
7340              85,794                                             0    104,421                38,923                                62.72                              0.00              90.70                                      0        Chicago, IL--IN                  2,896,016
7445                           474                                  158           1,726             1,726                                         0.00              33.30             100.00                                       71              Midland, MI                             41,685
7449                           126                                   0                     228              228                                   0.00                    0.00        100.00                                       66             Bay City, MI                             36,817




                 26                      AUDIT REPORT 09703-0001-32
Exhibit D: De Minimis Overlap
Exhibit D provides information on sample BIP applications that overlapped a second BIP
project. This table shows the overlapping sample and second BIP applicants’ BIP identification
numbers, the percentages of geographic overlap for each application, total numbers of
households in the overlapping applicants’ service areas, and sample applicants’ costs per
premises, all according to RUS. We added the numbers of overlapping households, percentages
of overlapping households for the sample applicants, 40 percentages of overlapping households
for the second BIP applicants, 41 and costs of the sample applicants’ overlapping households. 42




                                                                                                                                                                                                                                        Applicant’s Overlapping
                         Second BIP Applicant’s




                                                                                                Number of Overlapping
                                                                        Overlap of Second BIP




                                                                                                                                                                                           Overlap of Second BIP
 Sample Applicant’s ID




                                                                                                                                                                  Second BIP Applicant
                                                                                                                        Total Households of




                                                                                                                                                                  Total Households of
                                                   Percent Geographic



                                                                        Percent Geographic




                                                                                                                                                                                                                   Sample Applicant’s
                                                                                                                                              Percent Household




                                                                                                                                                                                           Percent Household
                                                   Overlap of Sample




                                                                                                                                              Overlap of Sample




                                                                                                                                                                                                                   Cost per Premises
                                                                                                                        Sample Applicant




                                                                                                                                                                                                                                        Cost of Sample
                                                                                                Households




                                                                                                                                                                                                                                        Households
                                                   Applicant



                                                                        Applicant




                                                                                                                                              Applicant




                                                                                                                                                                                           Applicant
                         ID




5291                       4459                             1.46                  0.54                 367              23,188                        1.58        368,028                            0.10                $610              $223,870

5266                       5455                             9.02                  1.65                 278                 3,383                      8.22         21,033                            1.32              1,072               $298,016

5339                       7686                             0.39                  0.06                         2                 657                  0.30             3,717                         0.05              3,791                     $7,582

5430                       7013                             1.29                  0.85                         0                     62                     0                    62                         0          9,103                                $0

5526                       7468                             0.27                  3.38                 160                 1,247                    12.83              1,660                         9.64              3,690               $590,400

7013                       5430                             0.85                  1.29                         0                     62                     0                    62                         0      21,890                                   $0

                                                  Total                                                807                                                                                                                              $1,119,868




40
   Number of overlapping households divided by the total households of sample applicant.
41
   Number of overlapping households divided by the total households of second BIP applicant.
42
   Number of overlapping households multiplied by the sample applicant’s cost per premises.

                                                                                                                                                                                         AUDIT REPORT 09703-0001-32                                               27
Exhibit E: Statistically Sampled BIP Project Applications
Exhibit E presents information on our sample BIP applications. For each statistically selected
sample application, the table below shows the recipients’ headquarters State, the BIP application
ID number, cluster sample number, cluster stratum, total BIP award, applicable NOFA round,
and project type.

 Recipient      Application   Cluster   Stratum      Total          NOFA       Project Type
Headquarters       ID         Sample                 Award          Round
    State
  Arkansas         5261         55        1            $7,285,202     2        Infrastructure
  Arkansas         5262         55        1           $38,288,349     2        Infrastructure
  Arkansas         5265         55        1            $5,129,575     2        Infrastructure
  Arkansas         5266         55        1            $4,665,116     2        Infrastructure
  Arkansas         5268         55        1           $27,644,292     2        Infrastructure
  Arkansas         5271         55        1           $10,328,319     2        Infrastructure
  Arkansas         5272         55        1            $1,005,566     2        Infrastructure
  Arkansas         5279         55        1             $855,901      2        Infrastructure
  Arkansas         5291         55        1           $20,497,604     2        Infrastructure
  Arkansas         5292         55        1            $3,050,160     2        Infrastructure
 California         484         9         3            $3,852,862     1        Infrastructure
 California         961         9         3            $5,483,010     1        Infrastructure
  Colorado          888         14        3            $1,513,850     1        Infrastructure
  Colorado         2971         14        3            $4,328,431     1        Infrastructure
  Colorado         5258         14        3           $11,147,200     2        Infrastructure
  Colorado         5430         14        3             $791,947      2        Infrastructure
  Colorado         5744         14        3            $5,172,500     2        Infrastructure
  Colorado         7013         14        3            $1,641,785     2        Infrastructure
  Colorado        SAT03         14        3           $14,159,250     2           Satellite
  Colorado        SAT04         14        3           $19,533,444     2           Satellite
  Georgia          5045         63        3             $447,993      2        Infrastructure
    Idaho          3539         4         3           $12,285,758     1        Infrastructure
   Illinois        5337         45        3            $3,546,826     2        Infrastructure
   Illinois        7340         45        3           $11,250,000     2        Infrastructure
    Iowa           1836         40        3            $1,519,225     1        Infrastructure
    Iowa           4790         40        3            $8,325,402     2        Infrastructure
    Iowa           5339         40        3            $2,611,909     2        Infrastructure
  Michigan         7445         49        3            $8,622,754     2        Infrastructure
  Michigan         7449         49        3            $1,107,903     2        Infrastructure
 Minnesota        TA08          39        3               $47,380     2     Technical Assistance
  Missouri          218         29        3           $10,280,916     1        Infrastructure
  Missouri         4520         29        3           $11,395,606     2        Infrastructure
  Missouri         5094         29        3            $7,191,620     2        Infrastructure
  Missouri         5728         29        3           $12,363,759     2        Infrastructure
  Missouri         5729         29        3            $8,970,781     2        Infrastructure
  Missouri         5730         29        3            $9,294,309     2        Infrastructure
  Missouri         5731         29        3           $20,270,861     2        Infrastructure
New Mexico         1176         17        3            $1,264,450     1        Infrastructure
New Mexico         1177         17        3            $3,237,000     1        Infrastructure
New Mexico         2054         18        3            $9,589,267     1        Infrastructure
New Mexico         4925         17        3           $11,856,832     2        Infrastructure
New Mexico         5392         17        3           $63,768,671     2        Infrastructure

28     AUDIT REPORT 09703-0001-32
  Recipient      Application   Cluster   Stratum   Total          NOFA       Project Type
Headquarters        ID         Sample              Award          Round
    State
 New York           3066         70        3         $5,328,642     1        Infrastructure
 New York           4470         70        3        $27,832,767     2        Infrastructure
 New York           6596         70        3         $7,168,559     2        Infrastructure
 New York           7311         70        3        $10,562,517     2        Infrastructure
North Carolina      5133         66        3        $19,947,739     2        Infrastructure
North Carolina      5166         68        3         $1,775,692     2        Infrastructure
North Carolina      5424         66        3        $16,003,418     2        Infrastructure
North Carolina      5562         68        3        $21,611,000     2        Infrastructure
North Carolina      5582         68        3        $28,985,294     2        Infrastructure
North Carolina      5927         68        3        $21,668,232     2        Infrastructure
North Carolina      6389         68        3        $25,297,000     2        Infrastructure
North Carolina      7282         67        3        $14,147,215     2        Infrastructure
   Oregon            702         5         3          $749,085      1        Infrastructure
   Oregon           1221         5         3          $628,860      1        Infrastructure
   Oregon           4269         5         3         $5,445,920     2        Infrastructure
   Oregon           4512         5         3         $5,654,734     2        Infrastructure
   Oregon           5425         5         3         $2,360,393     2        Infrastructure
   Oregon           6325         5         3         $5,197,732     2        Infrastructure
   Oregon          TA45          5         3          $200,000      2     Technical Assistance
    Texas           1245         19        3         $3,065,440     1        Infrastructure
    Texas           5382         19        3         $2,112,950     2        Infrastructure
  Virginia         SAT02         54        3         $7,530,000     2           Satellite
 Washington         5818         4         3        $20,458,320     2        Infrastructure
 Washington         6267         5         3         $3,731,069     2        Infrastructure
 Washington         7158         4         3         $9,169,637     2        Infrastructure
West Virginia       2535         53        3         $2,893,056     1        Infrastructure
West Virginia       4216         54        3         $8,529,310     2        Infrastructure
West Virginia       5324         54        3        $31,648,274     2        Infrastructure
 Wisconsin           608         72        2         $3,892,920     1        Infrastructure
 Wisconsin           627         72        2         $8,605,935     1        Infrastructure
 Wisconsin          5491         72        2         $1,669,255     2        Infrastructure
 Wisconsin          5494         72        2         $1,655,504     2        Infrastructure
 Wisconsin          5526         72        2         $1,143,784     2        Infrastructure
 Wisconsin          5529         72        2          $639,218      2        Infrastructure
 Wisconsin          5530         72        2         $1,363,547     2        Infrastructure
 Wisconsin          5549         72        2          $702,933      2        Infrastructure
 Wisconsin          5607         72        2         $2,021,197     2        Infrastructure
 Wisconsin          5624         72        2         $3,570,745     2        Infrastructure
 Wisconsin          5633         72        2         $1,837,421     2        Infrastructure
 Wisconsin          5635         72        2         $5,150,691     2        Infrastructure
 Wisconsin          5792         39        3         $9,067,898     2        Infrastructure
 Wisconsin          6020         72        2         $2,001,528     2        Infrastructure
 Wisconsin          6057         44        3         $5,239,168     2        Infrastructure
 Wisconsin          6060         44        3        $20,007,501     2        Infrastructure
                      Total                        $783,895,685




                                                           AUDIT REPORT 09703-0001-32        29
Exhibit F: Statistical Plan – Sampling Methodology and Analysis
Results
Objective:

We designed a sample to support the audit of RUS’BIP (Audit Report 09703-0001-32). The
sampling objective was to develop a random statistical sample for review, to analyze sample data
collected by the audit team, and to provide estimates for criteria being audited.

Audit Universe:

The universe consisted of 320 approved awards for BIP established by the Recovery Act and was
obtained from RUS. The original universe dated October 29, 2010, contained 320 awards. The
final universe size excludes 8 awards in Alaska (6), Hawaii (1), and American Samoa (1) from
review due to travel and resource considerations 43 as well as the 28 awards that were rescinded at
the time of sampling. Therefore, the final BIP Recovery Act universe consisted of 284 awards
spread across the United States.

Sample Design and Modifications:

For this audit, we used a clustered two-stage sample design. Grants and loans awarded under
BIP were spread across the United States. Because of travel considerations, we decided to look
at the dispersion of the awards across the country. The audit team used mapping software to plot
the 284 awards in the audit universe into a total of 70 geographic clusters based on travel
considerations. Therefore some clusters crossed State lines, some States had more than one
cluster, some “clusters” were singletons, 44 etc. We considered the clusters thus defined to be
reasonable selection units, providing both nationwide 45 coverage and some economy with regard
to travel. Two clusters included a significantly higher number of awards than the rest. We
placed those two in censuses strata of their own.

We selected 20 clusters from the random stratum of 68 clusters; for those clusters, all awards
were included in the sample. For the two large clusters, we selected awards at the second stage.
Additional design details are provided in Table 1 below.




43
   We did not perform awardee site visits during this audit. However, we designed our sample with the knowledge
that we would follow this audit of RUS’ pre-award controls with an audit of RUS’ post-award controls, during
which we would visit the sample awardees’ headquarters locations. Therefore, to minimize travel time and make the
most of our resources, we elected to remove from our universe the awards with headquarters in Alaska, American
Samoa, and Hawaii.
44
   Singleton means the “cluster” contained only one award; no others were located nearby.
45
   Excluding Alaska, Hawaii, and American Samoa.

30      AUDIT REPORT 09703-0001-32
Table 1: BIP Sample Design Structure

              Simple                                                     Number
              Random                                         Number      of
              Sample                  Headquarters           of          Awards
                            Cluster
              Order of                Location(s) of         Awards      Selected
                            ID
              Random                  Awards in Cluster      in This     for
              Cluster                                        Cluster     Review
              Selection                                                  at Stage 2
 Stratum 1            n/a       55 AR                       16                   10
 Stratum 2            n/a       72 WI                       44                   13
                        1       45 IL                         2                   2
                        2       53 WV                         1                   1
                        3       29 MO                         7                   7
                        4       44 WI                         2                   2
                        5        5 1 in WA; 7 in OR           8                   8
                        6       17 NM                         4                   4
                        7       40 IA                         3                   3
                        8       70 NY                         4                   4
                        9        4 2 in WA; 1 in ID           3                   3
                      10        66 NC                         2                   2
 Stratum 3
                      11        54 2 in WV; 1 in VA           3                   3
                      12        63 GA                         1                   1
                      13        39 1 in WI; 1 in MN           2                   2
                      14        18 NM                         1                   1
                      15        67 NC                         1                   1
                      16         9 CA                         2                   2
                      17        14 CO                         8                   8
                      18        68 NC                         5                   5
                      19        49 MI                         2                   2
                      20        19 TX                         2                   2
                              Total Number of Awards in Sample:                  86

In summary, we selected 86 awards for review. We had no historical information, relevant to the
criteria to be tested in this audit, on which to base a sample size calculation. In particular, we did
not know where to expect variance to occur. Therefore, the total sample size selected was
subjective.



                                                               AUDIT REPORT 09703-0001-32        31
Results:

To support the audit objectives, the audit team reviewed the sample of awards and measured
compliance and performance criteria associated with findings: (1) RUS funded projects that
sometimes overlapped preexisting RUS-subsidized providers and (2) awards did not demonstrate
that the proposed projects would be completed within the 3-year timeframe required.

Estimates are presented in the table below. All estimates and calculations shown are rounded to
the nearest whole number.

Table 2: BIP Statistical Projections

Criterion           Point Estimate:     Confidence Interval, 95%                 Achieved            Raw Data:
                    Projected           Confidence Level                         Precision           Exceptions
                    Number With                                                  (Absolute) 46       Observed in
                    Exceptions          Lower Bound          Upper Bound                             Sample
Overlapping               10                  1                   19                  +/-10%               4
Service Areas
(Prior RUS
Providers)
Finding 1

Timely                     34                   16                  52                +/-21%                 10
Completion
(3 Years)
Finding 2


Based on our sample results, we project that:

     •   Ten (10) RUS-funded projects in the universe (of 284 awards) overlap preexisting RUS
         projects. We are 95 percent confident that between 4 (actual number observed) and
         19 funded projects overlap preexisting RUS projects. Achieved precision is +/-10 percent.
     •   34 RUS-funded projects in the universe (of 284 awards) did not demonstrate that the
         proposed projects would be completed within the 3-year timeframe. We are 95 percent
         confident that between 16 and 52 projects did not demonstrate that the proposed projects
         would be completed within the 3-year timeframe. Achieved precision is +/-21 percent.




46
  For the number of awards, the achieved absolute precision shown in the table is the difference between the bound
and point estimate. This number can be divided by the total in the universe for precision relative to the universe (for
example, (18 minus 9) divided by 86, or 9 divided by 86, equals 10.4 percent (10 percent rounded). Values shown
are rounded down.


32       AUDIT REPORT 09703-0001-32
Agency’s Response




                  USDA’S
         RURAL UTILITIES SERVICE’S
         RESPONSE TO AUDIT REPORT




                         AUDIT REPORT 09703-0001-32   33
           United States Department of Agriculture




March 18, 2013


TO:            Gil H. Harden
               Assistant Inspector General for Audit
               Office of Inspector General


FROM:          John Dunsmuir /s/ John Dunsmuir
               Acting Director
               Financial Management Division


SUBJECT:       Audit Number 09703-001-32
               American Recovery and Reinvestment Act of 2009 – Broadband
               Initiatives Program


Attached, please find Rural Utilities Service’s response to the subject official draft report. If you

have any questions, pleases contact Debby Shore of my staff at (202) 692-0191.




                                               Rural Development
                          1400 Independence Ave., S.W. • Washington, DC 20250-0700
                                       Web: http://www.rurdev.usda.gov
                                  Voice: (202) 720-4581 • Fax: (202) 720-2080
                                    An Equal Opportunity Provider and Employer
                                                                 March 15, 2013


TO:           Gil H. Harden
              Assistance Inspector General for Audit
              Office of Inspector General

THRU:         John C. Padalino /s/ John Padalino
              Acting Administrator
              Rural Utilities Service

              John Dunsmuir /s/ John Dunsmuir
              Acting Director
              Financial Management Division

FROM:         Dallas Tonsager /s/ Doug O’Brien for Dallas Tonsager
              Under Secretary
              Rural Development

SUBJECT:      Audit Number 09703-0001-32
              American Recovery and Reinvestment Act of 2009 – Broadband
              Initiatives Program


Thank you for the opportunity to comment on OIG’s recent Audit of the Rural Utilities
Service’s (RUS) Broadband Initiative Program (BIP). RUS appreciates the Inspector
General’s input into ensuring that BIP met its statutory and regulatory missions in the
review and approval of the applications that were submitted for funding.

The Agency is pleased that OIG found that RUS complied with the provisions of the
Recovery Act in how it implemented BIP and did not find any instance where the
eligibility of any RUS-funded BIP project was questionable. While we appreciate OIG’s
recent Report and the finding noted above, RUS does not agree with OIG’s opinion on
how certain aspects of BIP were carried out. Although there are different options to
consider when establishing any program, RUS developed policies/procedures/processes
that met the intent of the Recovery Act to promote rural economic development by
bringing broadband service to underserved areas of rural America. Below are responses
to the individual findings.
Audit Number 09703-0001-32
American Recovery and Reinvestment Act of 2009
Broadband Initiatives Program                                                           2


Finding 1: RUS Approved BIP Projects That Overlap Preexisting RUS-Subsidized
Projects

Recommendation 1
Assess each BIP-funded project overlapping existing RUS-subsidized providers and, in
consultation with the Office of the General Counsel, remove the overlapping areas from
the BIP project service area, as practicable.

Agency Response
The Agency provided information to OIG demonstrating that we analyzed areas of
overlap prior to making awards. To ensure the most accurate assessment of proposed
service areas, RUS sent general field representatives (GFRs) to the service areas to gather
information with respect to applications in Round 2 that potentially overlapped with the
service areas of existing RUS-financed projects. The reports prepared by the GFRs
contained, among other things, the number of households that overlapped with such
existing projects, which the agency evaluated when making an award. The overlaps had
little or no impact on the financial feasibility of each project. Moreover, the Office of the
General Counsel (OGC) was consulted about potential overlaps and assisted RUS in
establishing the de minimis standards that were considered when approving the awards.
With regard to the recommendation that the Agency remove the overlapping areas from
the BIP project service area, due to existing contractual arrangements with each awardee,
and with the concurrence of OGC, RUS cannot retroactively change the terms of the
awards and remove service areas from funded projects. We request that OIG reconsider
this portion of the recommendation.

Recommendation 2
To the extent allowed by authorizing legislation, for future programs take steps to avoid
funding broadband projects in areas that are already served by RUS-subsidized providers.

Agency Response
The Agency notes that the existing RUS broadband program regulations have such a
restriction.    At present, the broadband regulations contain a prohibition on any
overfunding, de minimis or otherwise, with respect to any program administered by RUS,
not just the Broadband Program. See 7 C.F.R. 1738.102(4).

Notwithstanding the above, the agency cannot ensure that this policy will always
continue in the future. A policy of non-overlap must always be weighed against the
present needs of rural Americans and take into consideration the modernization and
upgrading of telecommunication facilities.
Audit Number 09703-0001-32
American Recovery and Reinvestment Act of 2009
Broadband Initiatives Program                                                           3


Recommendation 3
Implement controls to ensure that existing RUS borrowers’ and grantees’ service areas
maps are entered into the Broadband Program Mapping Tool.

Agency Response
RUS agrees with OIG’s recommendation and is currently developing enhancements to
the Mapping Tool that will allow existing borrowers and grantees to submit their service
area maps. It is anticipated that these enhancements will be completed by December 30,
2013.


Finding 2: RUS Approved BIP Projects That Did Not Comply with Published
Project Completion Timeframes

Recommendation 4
To the extent allowed by authorizing legislation, for future broadband programs publish
and follow clearly defined project completion expectations.

Agency Response
The Agency believes that pursuant to BIP we published and followed clearly defined
project completion expectations. The Agency would expect to do the same in future
program implementation efforts. As determined by OIG, all awards approved under BIP
were found to meet the eligibility requirements contained in the NOFA.

Additionally, the RUS notes that under the agency’s Rural Electrification statute,
broadband borrowers are required to “agree to complete build-out of the broadband
service described in the loan application by not later than 3 years after the initial date on
which proceeds from the loan . . . are made available.                   See 7 U.S.C. §
950bb(d)(1)(A)(iii)(emphasis added). This requirement was clearly explained in the
regulation that implemented this statute. See 7CFR Part 1738.212.


Finding 3: RUS Followed Recovery Act’s Language, But Rural America Could
Receive Additional Benefit From an Increased Focus of Funds on Rural Residents
Lacking Access to Broadband

Recommendation 5
To the extent allowed by authorizing legislation, for future broadband programs
implement controls to ensure broadband funds are used effectively to provide broadband
to rural residents who lack such access.

Agency Response
As RUS has stated to Congress and OIG, despite RUS’ best efforts to direct funds only to
rural areas without broadband access, the business case for sustainable projects in these
Audit Number 09703-0001-32
American Recovery and Reinvestment Act of 2009
Broadband Initiatives Program                                                            4


areas is hard to achieve, given low density, difficult to construct areas and the inability to
attract investors to areas with low returns which is why many of these areas still do not
have service. Despite 100% grant financing, many projects in these rural areas are not
sustainable long term after the projects have been built, and will remain so, until some
type of continuing financial support is addressed.

RUS will continue its practice of evaluating new authorizing legislation to ensure, that to
the greatest extent possible, programs are established with a goal of providing broadband
service to rural residents that lack such access.

Recommendation 6
Determine, for overlapping BIP projects, the number of households in the overlapping
areas; consider the impact of those households on the financial feasibility of each of the
overlapping BIP projects; and adjust the awards, as necessary, to carve out overlapping
areas and better ensure the financial feasibility and sustainability of the BIP projects.

Agency Response
Of the 6 projects which the OIG found to overlap other projects, 3 of the projects had
respectively 0, 0, and 2 households overlapping, out of 3,841 total households. The
overlap in these projects is essentially non-existent. Of the three remaining projects cited
by OIG, two had overlaps which were extremely de minimis: one project overlapped 367
households of a total 368,028 households with another project, or 0.09%; the other
project overlapped 278 households of a total 21,033 households, or 1.32%. Only one
project of the 6 had an overlap near the 10% cap, having 160 households of a total 1,660
households overlap with another project, or 9.64%. That project was determined to have
no effect on the other BIP award. As such, the agency cannot agree that these awards, or
the awards that overlapped with them, were a financial threat to the feasibility of any
overlapping project that was funded. Moreover, the agency cannot take steps to carve out
these areas due to its existing contractual obligations.

Recommendation 7
To the extent allowed by authorizing legislation, for future broadband programs ensure
overlapping service areas are not funded under the same program.

Agency Response
As the issue of funding an overlap of service areas is really the same issue as future
funding over existing areas of RUS-subsidized providers, please see the Agency’s
response to Recommendation 2.
Informational copies of this report have been distributed to:

Acting Administrator, Rural Utilities Service
 Attn: Agency Liaison Officer

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
